                                                                         United States Department of State
                                                                         and the Broadcasting Board ofGovemors
                                                                         Inspector General

                                                                                NOV 1 61009


Me. Jeffrey N. Trimble
Executive Director
Broadcasting Board of Governors
330 Independence Avenue SW, Room 3360
Washington, DC 20237

Dear Mr. Trimble:

        An independent certified public accounting firm, Leonard G. Birnbaum and
Company, LLP (LGB), was engaged to audit the financial statements of the Broadcasting
Board of Governors (BBG) as of September 30, 2009 and 2008, and for the years then
ended, to provide a report on internal control over financial reporting (including
safeguarding assets) and compliance with laws and regulations, and to report any
reportable noncompliance with laws and regulations it tested. The contract required that
the audit be done in accordance with U.S . generally accepted government auditing
standards; Office of Management and Budget audit guidance; and the Financial Audit
Manual, issued by the Government Accountability Office and the President's Council on
Integrity and Efficiency.

         In its audit ofBBG, LGB found

         • 	 the financial statements were presentcd fairly, in all material respects, in
             conformity with U.S. gencrally accepted accounting principles;

         • 	 there were no material weaknesses] in internal control; and

         • 	 there were no reportable noncompliance with laws and regulations tested.

       LOB is responsible for the enclosed auditor's report, Independent Auditor 's
Report on the Broadcasting Board a/Governors 2009 and 2008 Financial Statements
(AUD/IB ~ 10 -04), dated November 16,2009, and the conclusions expressed in the report.
The Office of Inspector General (OIG) does not express an opinion on BBO's financial
statements or conclusions on internal control or compliance with laws and regulations.



1 A material weakness is a deficiency or combination of deficiencies in internal control such that there is a
reasonable possibility that a material misstatement of the entity's financial statements will not be prevented
or detected and corrected on a timely basis.



   Addreu correspondence to: U.S. Department of State, Office or Inspector General, Wubington. D.C.1OSll"'{)308
        BBG 's comments are included as Appendix A to Lhc enclosed report. OIG
appreciates the cooperation extended to it and LOB by BBG managers and staff during
this audit.

        If you or members of your staff have any questions. please contact me or Evclyn
R. Klemstinc, Assistant Inspector Gencml for Audits. at (703) 284-2604 or bye-mail at
kl emslince@slatc.gov. You may also contact Gayle Voshell , Director of Financial
Management Audits, at (703) 284-2681 or by c-mail at voshellg@state.gov.

Sincerely.



Harold W. Geisel
Acting Inspector General

Enclosure:   As stated.




                                           2

   Independent Auditor's Report 



Broadcasting Board of Governors 

     Financial Statements 


   September 30, 2009 and 2008 



    AUD/IB-IO-04, November 2009 





 Leonard G. Birnbaum and Company, LLP 

       Certified Public Accountants 

          6265 Franconia Road 

       Alexandria, Virginia 22310 

              (703) 922-7622 

                             LEONARD G. BIRNBAUM                         AND     COMPANY, LLP
                                              CERTIFIED PUBLIC ACCOUNTANTS
                                                        WASHINGTON OFFICE
                                                       6285 FRANCONIA ROAD
                                                     ALEXANDRIA, VA 22310-2510


                                                           (703) 922·7622
                                                         FAX: (703) 922·6256
lESLIE A. LEIPER                                                                                           WASHINGTON, D.C.

LEONARD G. BIRNBAUM                                                                                     SUMMIT, NEW JERSEY

DAVID SAKOFS                                                                                        REDWOOD CITY, CALIFORNIA

CAROL A. SCHNEIDER
DORA M. CLARKE




                                        INDEPENDENT AUDITOR'S REPORT


            To the Chainnan 

            Broadcasting Board of Governors 


            We have audited the Broadcasting Board of Governors (BBG) Consolidated Balance
            Sheet, Consolidated Statement of Net Cost, Consolidated Statement of Changes in Net
            Position, and Combined Statement of Budgetary Resources (annual financial statements)
            as of, and for the years ended, September 30, 2009 and 2008. We have considered
            internal control over financial reporting in place as of September 30, 2009, and for the
            year then ended, and we tested compliance with selected laws and regulations.

            In our audits of BBG's 2009 and 2008 financial statements, we found

                   • 	 the financial statements are presented fairly, in all material respects, in confonnity
                       with U.S. generally accepted accounting principles;

                   • 	 no material weaknesses in internal control over financial reporting and
                       compliance with laws and regulations; and

                   • 	 no instances of reportable noncompliance with laws and regulations we tested.

            Each of these conclusions is discussed in more detail on the following pages. This report
            also discusses our audit objectives, scope, and methodology.

                             OPINION ON THE ANNUAL FINANCIAL STATEMENTS

            In our opinion, BBG's annual financial statements, including the notes thereto, present
            fairly, in all material respects, BBG's financial position as of September 30,2009 and
            2008, and its net cost of operations, changes in net position, and use of budgetary
            resources for the years then ended, in confonnity with accounting principles generally
            accepted in the United States of America.




                                MEMBERS OF THE AMERICAN INSTITUTE OF CERTIFIED PUBLIC ACCOUNTANTS
                                 INTERNAL CONTROL 


In planning and performing our audits ofBBG's financial statements as of, and for the
years ended, September 30, 2009 and 2008, in accordance with auditing standards
generally accepted in the United States of America, we considered BBG's internal
control over financial reporting as a basis for designing our auditing procedures for the
purpose of expressing our opinion on the arumal financial statements, but not for the
purpose of expressing an opinion on the effectiveness ofBBG's internal control.
Accordingly, we do not express an opinion on the effectiveness ofBBG's internal control
or on management's assertion on internal control.

We limited our consideration of internal control to those controls necessary to achieve the
objectives described in Office of Management and Budget (OMB) Bulletin 07-04, Audit
Requirementsfor Federal Financial Statements. We did not consider all internal controls
relevant to operating objectives as broadly defined by the Federal Managers' Financial
Integrity Act of 1982, such as those controls relevant to ensuring efficient operations.

The purpose of internal control is to provide management with reasonable, but not
absolute, assurance that the following objectives are met:

       • 	 Financial reporting: Transactions are properly recorded, processed, and
           summarized to permit the preparation of financial statements in conformity
           with U.S. generally accepted accounting principles, and assets are safeguarded
           against loss from unauthorized acquisition, use, or disposition.

       • 	 Compliance with laws and regulations: Transactions, including those related
           to obligations and costs, are executed in accordance with (l) laws governing
           the use of budget authority; (2) other laws and regulations that could have a
           direct and material effect on the financial statements; and (3) any other laws,
           regulations, and govemmentwide policies identified by OMB, BBG
           management, or the Office ofInspector General as being significant for which
           compliance can be objectively measured and evaluated.

A deficiency in internal control exists when the design or operation of a control does not
allow management or employees, in the normal course of performing their assigned
functions, to prevent or detect and correct misstatements on a timely basis. A material
weakness is a deficiency or combination of deficiencies in internal control such that there
is a reasonable possibility that a material misstatement of the entity's financial statements
will not be prevented or detected and corrected on a timely basis.

Our consideration of the internal control over financial reporting was not designed to
identify all deficiencies in internal control that might be significant deficiencies or
material weaknesses; therefore, there can be no assurance that all deficiencies, significant
deficiencies, or material weaknesses have been identified. We did not identify any
deficiencies in internal control that we consider to be material weaknesses, as defined
above.



                                              2

However, we consider the following three deficiencies in BBG's internal control to be
significant deficiencies. A significant deficiency is a deficiency, or a combination of
deficiencies, in internal control that is less severe than a material weakness yet important
enough to melit attention by those charged with governance.

       • 	 BBG's internal control over its financial and accounting system as of
           September 30,2009, was inadequate. There is a risk of materially misstating
           financial infonnation under the current conditions. The principal area of
           inadequacy was that certain elements ofthe financial statements, principally
           property, plant, and equipment, are developed from sources other than the
           general ledger. The use of sources other than the general ledger to generate
           elements of the financial statements increases the potential for omission of
           significant transactions.

This condition was cited in our audit ofBBG's balance sheet as of September 30, 2004,
and in subsequent audits.

       • 	 During FY 2009, BBG did not maintain adequate internal control over
           accounts payable. Initial audit testing indicated that the amount presented as
           accounts payable was misstated by approximately 35 percent. Although BBG
           undertook an initiative to identify and resolve misstatements in accounts
           payable, the reconciliation was not completed by September 30,2009.

This condition was cited in our audit ofBBG's annual financial statements as of
September 30, 2006, and in subsequent audits.

       • 	 BBG's internal controls over property are inadequate. Deficiencies included
           the following:

           •	   Acquisitions and disposals were not recorded in the year of occurrence.
           •	   Costs of shipping property to posts were not treated consistently.
           •	   Recorded inventory was not reconciled with physical inventory.
           •	   Salvage values were not treated consistently.

We are required to review BBG's current FMFIA report and disclose differences with the
material weaknesses cited in our report. We did not identify any discrepancies.

We noted certain other internal control issues that we have reported to BBG management
in a separate letter dated November 16,2009.




                                              3

                 COMPLIANCE WITH LAWS AND REGULATIONS 


BBG management is responsible for complying with laws and regulations applicable to
BBG. As part of obtaining reasonable assurance about whether the annual financial
statements are free of material misstatement, we performed tests ofBBG's compliance
with certain provisions oflaws and regulations, noncompliance with which could have a
direct and material effect on the detennination of financial statement amounts, and
certain other laws and regulations specified in OMB Bulletin 07-04 that we deemed
applicable to BBG's annual financial statements. We limited our tests of compliance to
these provisions, and we did not test compliance with all laws and regulations applicable
to BBG. Noncompliance may occur and not be detected by these tests. This testing may
not be sufficient for other purposes. The objective of our audit of the annual financial
statements, including our tests of compliance with provisions of selected laws and
regulations, was not to provide an opinion on overall compliance with such provisions.
Accordingly, we do not express such an opinion.

Material instances of noncompliance are failures to follow requirements or violations of
prohibitions in statutes and regulations that cause us to conclude that the aggregation of
the misstatements resulting from those failures or violations is material to the financial
statements or that sensitivity warrants disclosure thereof. The results of our tests of
compliance with laws and regulations disclosed no material instances of noncompliance.

                     CONSISTENCY OF OTHER INFORMATION

BBG's Management's Discussion and Analysis, Required Supplementary InfOlmation,
and other accompanying information contain a wide range of information, some of which
is not directly related to the financial statements. We do not express an opinion on this
infonnation. We have applied certain limited procedures, which consisted principally of
comparing the information for consistency with the financial statements and making
inquiries of management regarding the methods of measurement and presentation of the
supplementary information. On the basis of this limited work, we found no material
inconsistencies with the financial statements, U.S. generally accepted accounting
principles, or OMB guidance.

                     RESPONSIBILITIES AND METHODOLOGY

BBG management has the responsibility for

       • 	 preparing the annual financial statements, required supplementary
           information, and other accompanying information in confonnity with
           accounting principles generally accepted in the United States of America;

       • 	 establishing, maintaining, and assessing internal control to provide reasonable
           assurance that the broad control objectives of the Federal Managers' Financial
           Integrity Act are met; and



                                             4

        • 	 complying with applicable laws and regulations.

We are responsible for obtaining reasonable assurance about whether BBG's financial
statements are presented fairly, in all material respects, in confonnity with U.S. generally
accepted accounting principles and BBG management maintained effective internal
control. We are also responsible for testing compliance with selected provisions of
applicable laws and regulations that may materially affect the financial statements and
perfonning limited procedures with respect to certain other infonnation appearing in the
annual financial statements.

In order to fulfill these responsibilities, we

        • 	 examined, on a test basis, evidence supporting the amounts in the arumal
            financial statements and related disclosures;

        • 	 assessed the accounting principles used and significant estimates made by
            management;

        • 	 evaluated the overall presentation of the annual financial statements;

        • 	 obtained an understanding of the entity and its operations, including its
            internal controls related to financial reporting and compliance with laws and
            regulations;

        • 	 tested relevant internal controls over financial reporting and compliance and
            evaluated the design and operating effectiveness of internal control;

        • 	 considered the design of the process for evaluating and reporting on internal
            control and financial management systems under the Federal Managers'
            Financial Integrity Act;

        • 	 tested compliance with provisions of selected laws and regulations that may
            have a direct and material effect on the annual financial statements;

        • 	 obtained written representations from management; and

        • 	 perfonned other procedures as we considered necessary under the
            circumstances.

We perfonned our work in accordance with auditing standards generally accepted in the
United States of America, the standards applicable to financial audits contained in the
Government Auditing Standards, and the provisions ofOMB Bulletin 07-04. We believe
that our work provided a reasonable basis for our opinions.




                                                 5

This report is intended solely for the infonnation and use of BBG management, the
Inspector General of the U.S. Department of State and Broadcasting Board of Governors,
OMB, the Government Accountability Office, the Department of the Treasury, and
Congress and is not intended to be and should not be used by anyone other than those
specified parties. This restIiction is not intended to limit the distribution ofthis report,
which is a matter of public record.

Comments by BBG management on this report are presented in Appendix A. The written
response by BBG management to the significant deficiencies identified in our audit has
not been subjected to the auditing procedures applied in the audit of the financial
statements and, accordingly, we do not express an opinion on these comments.



                                         ~"'=.Ql>~""~~_                            \.. \ \
                                              Leonard G. Birnbaum and     co~, LLP

Alexandria, Virginia
November 16, 2009




                                             6

                                                                                                                  APPENDIX A

                 BROADCASllNG
                 BROADCASIlNG
                 BROADCAS11NG BOARD OF GOVERNORS
                 UNfffiD
                 UNITED STATES OF AMERICA




        November 16, 2009



        The Hono
              Honorable
                     rable Harold W. Geisel
        Ac
        Actt ing Inspector
        Acting   In spector General
        Office of Inspector General
        2201 C Street, N
                       N...W
                           W.
        Washington, DC 20520

        Dear Mr. Geisel:

        Th i s is in response to
        This                  t o your request for comments                                at
                                                   commen ts on the report Audit of the Broadcas
                                                                                        Broadcasting
                                                                                                 ting Board of
        Governors
        Go  vernors Financial Statements
                                 Statements,, September 20,2009
                                                        20, 2009 and 2008.

        This is the sixth year that the BSG
                                        BBG has prepared financial statements and undergone an audit. The
        independent
        indepe
        indepen ndent audit firm has issued an unq
                                               unqualified
                                                   ualified ("clean") opin ion on BSG's
                                                                      opinion     BBG's three principal financial
        statements.

                                         professionall and coo
        We greatly appreciate the professiona                 cooperative  mannerr in which your staff and the audit firm,
                                                                  perative manne
        ll eonard
           e onard G. Birnbaum and Company, llP             cond ucted this audit.
                                                     llP,, conducted        a udit.
                                                                              udit. Throughout FY 2009, tthe
                                                                                                          he SSG
                                                                                                              BBG has
                                                                                                                   ha s made
        signifi
        sign     cantt str
        significant
              ifican    triides in iimprov
                        trides       mproving
                                     mprov ing interna
                                               internall financial processes.
                                                                   processes . Some of these im
                                                                                              improvem
                                                                                                proveme
                                                                                                provem      ts are reflected
                                                                                                         ennts
        in yo
        in   your
               ur report .

       The report identified three matters involving internal con    t rols that the Auditors cconsidered
                                                               controls                         onside red significant.
                                                                                                onsidered
       The first re lates to developing elements of the financia
                 relates                                financiall statements, principally property, plant, and
       equipment,
           ipment,, from sources other than the general
       equ ipment                                genera l ledger
                                                           ledger..

       We have had concerns that developing elements of the financial    finanCial statement
                                                                                   statementss from sources outside of the
       financial system will
                           witt increase
                                inc rease the potential for omission of significant transacti
                                                                                          transactions ons of property, pta     nt,
                                                                                                                             plant,
       an
       andd equipment . However  ever,, the SSG ha
                           However,
                           How                     hass established a process that will reduce
                                                                                            redu ce the pot      ential
                                                                                                             potent  ial for such
                                                                                                             potential
       om iss
            ssions
               ions by using a
       omissions              ann external database to track property
                                                                 property,, plant,
                                                                             plant, and equipment
                                                                                          equipment.. Thi    Thiss will be achieved
       by reconci
            econcill ing acquisition in
                                      information
                                         formation in the Momentum financial management system             system,, launched iin n FY
       2008, with the information maintained in the property database. Momentum     Momentum's       ' s iintegration
                                                                                                           ntegration of acquisition
       an
       andd financial
             financial
              inancia l management will wi ll allow us to track procurement awards
                                                                                award s for property, pl        ant, and equipment
                                                                                                              plant,
       by t he following commodity categories: vehicles, land,   la nd, and other capita     l ized goods. Additionally
                                                                                    capitalized                Additionally,, we will
       utilize the commodity
                    commod ity code information from Momentum to reconci               l e quarterly entries that are derived
                                                                               reconcile
       from the property database with the procurement awards that are identified by commodity cate                            gory.
                                                                                                                          category.

       The second issue iiss related to the Agency's
                                               Age ncy's reconciliation
                                                          reconcil
                                                          recon   cilia tion of accounts payable
                                                                     iation              payable.. Each year
                                                                                                        year,, the BSG
                                                                                                                   SSG cl o  oses
                                                                                                                               ses
       its books on a tight
                       t ight year--end
                              year·end
                              year·e nd closing schedu
                                                  schedule.l e. The BBG
                                                                     SSG closed
                                                                           dosed the FY 2009 books on Octobe
                                                                                                         Octoberr 888U1
                                                                                                                      ~h afte
                                                                                                                     1h
                                                                                                                         afterr
       reconciliation
       reconciliation,, includ
                        including
                        includin g accounts payab
                               ing                    le, had been performed. Accounts payable for FY 2009 prov
                                               payable,                                                                     ides
                                                                                                                       provides
       an accurate statement of BSG'sSSG' s liabilities.



3.30 INDEPENDENCE
3JO                         s'tV
                            SIN
     INOEPENOI-:NCE AVENUE, S\V
     INOEPENOENCE                    ROOI\II6S5
                                     ROO,,"! 1655
                                     ROOI\I  16S5    COHEN BUILDING          WASI IIlING1'ON
                                                                                      NGlDN,, OC
                                                                                     LNGTON,     202.37
                                                                                              DC 20m
                                                                                                 20237    (202)20.).4615
                                                                                                          (ztl2 ) ZOJ.4615   FAX (ZOZ) 20.l-4639
                                                                                          APPENDIX A



The third issue relates to Agency internal controls ove
                                                    overr property. The BSG established a Property Office
wh ich has improved the consistency of property oversight by integrating the property records in the
which
BSG's automated Property Inventory Pro Process
                                          cessing
                                          cess ing System (PIPS).

Thank
Th ank you for the opportunity to comment on the audit report and for working with us on our FY 2009
aud it. The SSG is committed to the improvement of our internal controls and the quality of our financial
audit.                                                                                          f inanc
                                                                                                  inancial
                                                                                                        ial
repo
rep
reporting.
    o rting
      rting..



S
Sincerely,
 incerely,



Jef~~ 7~
   ~~e:7
       ~
Executive Director
